     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242
October 22, 2010


Report Number: A-06-09-00090

Mr. Thomas M. Suehs
Executive Commissioner
Texas Health and Human Services Commission
P.O. Box 13247
Austin, TX 78711

Dear Mr. Suehs:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Nonemergency Medical Transportation Costs in
the State of Texas (Transportation Provided by the League of United Latin American Citizens –
Project Amistad). We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414 or contact Sylvie Witten, Audit Manager, at (512) 339-3071 or through email at
Sylvie.Witten@oig.hhs.gov. Please refer to report number A-06-09-00090 in all
correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Thomas M. Suehs


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicad and Children’s Health Operations
233 North Michigan Avenue, Suite 600
Chicago, IL 60601


cc:
Mr Billy R. Millwee
Associate Commissioner for Medicaid and CHIP
Texas Health and Human Services Commission
P.O. Box 85200
Austin, TX 78708-5200

Mr. David M. Griffith
Internal Audit Director
Texas Health and Human Services Commission
P.O. Box 13247
Austin, TX 78711
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




REVIEW OF NONEMERGENCY MEDICAL
TRANSPORTATION COSTS IN THE STATE
              OF TEXAS
 (TRANSPORTATION PROVIDED BY THE
LEAGUE OF UNITED LATIN AMERICAN
    CITIZENS – PROJECT AMISTAD)



                         Daniel R. Levinson
                          Inspector General

                           October 2010
                           A-06-09-00090
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Federal regulations (42 CFR § 431.53) require each State to ensure that Medicaid beneficiaries
have transportation to and from medical providers and to describe in its State plan the methods
that the State will use to meet this requirement. Federal regulations (42 CFR § 440.170) define
transportation expenses as costs for transportation that the State deems necessary to secure
medical examinations and treatment for Medicaid beneficiaries.

During our audit period, the Texas Health and Human Services Commission (the State agency)
contracted with the Texas Department of Transportation (TxDOT) to administer the
nonemergency medical transportation (transportation) program. This program provides
transportation to and from covered health care service providers for Medicaid beneficiaries and
other eligible recipients. TxDOT subcontracts with transportation providers.

One transportation provider, League of United Latin American Citizens – Project Amistad
(Project Amistad), provides these transportation services to six Texas counties. During calendar
year (CY) 2007, the State agency claimed $2,975,309 ($1,487,654 Federal share) for medical
transportation services provided by Project Amistad.

OBJECTIVE

Our objective was to determine whether the State agency claimed Medicaid reimbursement for
transportation services provided by Project Amistad in accordance with Federal and State
requirements.

SUMMARY OF FINDINGS

The State agency did not always claim Medicaid reimbursement for transportation services
provided by Project Amistad in accordance with Federal and State requirements. Of 100
sampled transportation claim payments to Project Amistad for CY 2007, 65 were allowable.
However, the State agency underpaid 14 claims for services provided between July and
September 2007 because it used outdated rates to determine the reimbursement amounts.
Another 19 claims were unallowable or partially unallowable for the following reasons:

   •   Transportation was provided by drivers who did not have a criminal background check or
       who had a prohibited criminal history on file with Project Amistad (12 claims).



                                                i
   •   The beneficiary did not receive a Medicaid-covered health care service on the
       transportation date (six claims).

   •   The vehicle used for transportation did not have a valid State vehicle registration on the
       date of service (one claim).

In addition, the available documentation was insufficient to determine whether all or part of two
claims met Federal and State requirements. For these two claims, the medical provider was
unable to verify whether a Medicaid-covered service took place on the date of transportation.
We did not question the transportation service for these two claims and did not include the
claims in our estimate of net overpayments.

As a result of the underpayments and unallowable and partially unallowable claims, Project
Amistad received a net overpayment of $966. Based on our sample results, we estimated that
Project Amistad received net overpayments of at least $262,536 ($131,268 Federal share) for CY
2007.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $131,268 (Federal share) for claims that did not comply with Federal and State
       requirements,

   •   work with Project Amistad to implement controls to ensure that the correct rate is paid
       for transportation,

   •   ensure that Project Amistad completes criminal background checks on drivers in a timely
       manner,

   •   ensure that Project Amistad has controls in place to prevent payment for transportation
       services on dates that beneficiaries do not receive a Medicaid-covered health care service,
       and

   •   work with Project Amistad to implement controls to ensure that vehicles used for
       transportation have a valid State vehicle registration.

STATE AGENCY COMMENTS

Regarding our first recommendation, the State agency said that it will work with Project Amistad
to determine whether the transportation services identified in the audit as unallowable complied
with Federal and State requirements and that it will refund the Federal share for those services
that did not meet applicable requirements. Regarding the four remaining recommendations, the
State agency provided details of the actions it had completed or planned to complete in response
to those recommendations.

The State agency’s comments are included in their entirety as Appendix C.

                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Nonemergency Medical Transportation Program in Texas ..................................1
              League of United Latin American Citizens – Project Amistad. ...........................1
              State Requirements ...............................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope .....................................................................................................................2
               Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATIONS .............................................................................4

          TRANSPORTATION CLAIMED AT THE INCORRECT RATE .................................5

          CRIMINAL BACKGROUND CHECK NOT PERFORMED
           OR DRIVER HAD A PROHIBITED CRIMINAL HISTORY.....................................5

          MEDICAID-COVERED SERVICE NOT PROVIDED
           ON TRANSPORTATION DATE .................................................................................6

          UNREGISTERED VEHICLE USED FOR TRANSPORTATION .................................6

          INSUFFICIENT DOCUMENTATION............................................................................6

          RECOMMENDATIONS ..................................................................................................6

          STATE AGENCY COMMENTS .....................................................................................7

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Federal regulations (42 CFR § 431.53) require each State to ensure that Medicaid beneficiaries
have transportation to and from medical providers and to describe in its State plan the methods
that the State will use to meet this requirement. Pursuant to 42 CFR § 440.170, transportation
expenses include transportation costs and related travel expenses deemed necessary by the State
agency to secure medical examinations and treatment for a beneficiary.

Nonemergency Medical Transportation Program in Texas

During our audit period, the Texas Health and Human Services Commission (the State agency)
contracted with the Texas Department of Transportation (TxDOT) to administer the
nonemergency medical transportation (transportation) program. This program provides
transportation to and from covered health care services for Medicaid beneficiaries and other
eligible recipients. TxDOT subcontracts with transportation providers.

League of United Latin American Citizens – Project Amistad

The League of United Latin American Citizens – Project Amistad (Project Amistad) is 1 of 15
transportation providers that contracts with TxDOT to provide transportation services to a
designated service area. The State agency designates one or more groups of counties as a
transportation service area. There are a total of 24 service areas statewide. Project Amistad
provides transportation to one service area that includes 6 counties in West Texas.

The State agency claimed transportation payments to Project Amistad as administrative services
on the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program (Form
CMS-64). In calendar year (CY) 2007, the State agency paid Project Amistad $2,975,309 for
46,887 claims.

State Requirements

The Texas Administrative Code (§ 380.203) states that the transportation program includes
“reasonable transportation of a prior authorized [Medical Transportation Program] recipient to
and/or from a prior authorized health care facility where health care needs will be met.” In
addition, § 380.209 states that the transportation program does not cover “transportation of




                                               1
individuals to services which are not covered by the applicable state or federal medical assistance
program under which the recipient qualifies.”

The Texas Medicaid State plan, Attachment 3.1-D, states that transportation providers that
provide medical transportation services as administrative services, which includes Project
Amistad, must comply with applicable Federal and State rules and regulations and fulfill all the
terms of the transportation contract.

The transportation contract between TxDOT and Project Amistad requires annual criminal
background checks on drivers before they begin providing transportation services. The contract
requires that the background check cover a minimum of 7 years and states that individuals with
any criminal history should not be allowed to participate in providing transportation services. It
also gives Project Amistad the discretion to use drivers with a criminal history prior to the 7-year
period. The background check should include, but not be limited to, felony or misdemeanor
convictions of any violent crimes, abusive behavior, sex offenses, or fraud in any jurisdiction. In
addition, drivers found guilty by law enforcement of driving while intoxicated (DWI) or driving
under the influence of any substance that may impair a driver’s ability to safely operate a motor
vehicle should not provide transportation services.

The contract also states that Project Amistad must “develop, implement, and maintain an annual
inspection process to verify that all vehicles meet applicable federal, state and local ordinances.”
The contract also requires that Project Amistad have procedures that, at a minimum, track and
document annual vehicle registration.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Medicaid reimbursement for
transportation services provided by Project Amistad in accordance with Federal and State
requirements.

Scope

Our review covered transportation service payments totaling $2,975,309 ($1,487,654 Federal
share) that the State agency paid to Project Amistad in CY 2007.

We limited our review of internal controls to understanding the preauthorization and scheduling
of transportation services, driver procedures and documentation, and the billing, claiming, and
reimbursement procedures for Project Amistad and the State agency.

We conducted fieldwork at the State agency in Austin, Texas, and Project Amistad’s office in El
Paso, Texas.




                                                 2
Methodology

To accomplish our objective, we:

   •   reviewed Federal and State laws and regulations related to Medicaid transportation
       services;

   •   reviewed Project Amistad’s contract with TxDOT;

   •   interviewed State agency officials regarding beneficiaries’ eligibility for transportation
       services, prior authorization and scheduling of services, and the claims verification and
       monitoring process;

   •   reconciled the State agency’s claim for transportation services for the quarter ending
       December 31, 2007, on the Form CMS-64 to supporting documentation;

   •   interviewed Project Amistad officials regarding policies and procedures used to record,
       modify, cancel, audit, and claim transportation services; and

   •   selected a random sample of 100 claims for transportation services submitted by Project
       Amistad for CY 2007.

For the 100 sampled claims, we determined whether the claims met Federal and State
requirements for Medicaid reimbursement. Specifically, we:

   •   reviewed Project Amistad’s documentation regarding the beneficiary, origination and
       destination addresses, prior authorizations, and the driver and vehicle utilized;

   •   reviewed the payments made to Project Amistad to determine whether the rates paid were
       in accordance with the contract for the type of service, the number of passengers, and the
       number of one-way trips provided;

   •   reviewed Project Amistad’s documentation of the drivers’ criminal background checks to
       determine whether each driver was free of a criminal history, as defined under the
       contract between TxDOT and Project Amistad, within 7 years of the dates of hire;

   •   reviewed Project Amistad’s documentation of the drivers’ moving violation records to
       determine whether each driver was free of any finding of DWI or driving under the
       influence of any substance;

   •   reviewed Project Amistad’s documentation of State vehicle registrations and annual State
       inspections to determine whether each vehicle had a current registration and inspection at
       the time of the transportation service;




                                                3
   •   analyzed claims data from the State Medicaid Management Information System (MMIS)
       to determine whether each beneficiary obtained a Medicaid-covered health care service
       on the date of the transportation service;

   •   requested a confirmation from Medicaid providers that they provided a Medicaid-covered
       service to those beneficiaries who did not have a Medicaid claim documented in the
       MMIS on the date of the transportation service; and

   •   quantified the number of claims paid and estimated the total dollar amount that the State
       agency claimed for reimbursement for transportation services on dates when (1)
       transportation was provided by drivers with no criminal background check or a prohibited
       criminal history, (2) beneficiaries did not receive Medicaid-covered services, (3) an
       unregistered vehicle was used for transportation, or (4) services were claimed at the
       incorrect rate. (See Appendixes A and B.)

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                            FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Medicaid reimbursement for transportation services
provided by Project Amistad in accordance with Federal and State requirements. Of 100
sampled transportation claim payments to Project Amistad for CY 2007, 65 were allowable.
However, the State agency underpaid 14 claims for services provided between July and
September 2007 because it used outdated rates to determine the reimbursement amounts.
Another 19 claims were unallowable or partially unallowable for the following reasons:

   •   Transportation was provided by drivers who did not have a criminal background check or
       who had a prohibited criminal history on file with Project Amistad (12 claims).

   •   The beneficiary did not receive a Medicaid-covered health care service on the
       transportation date (six claims).

   •   The vehicle used for transportation did not have a valid State vehicle registration on the
       date of service (one claim).

In addition, the available documentation was insufficient to determine whether all or part of two
claims met Federal and State requirements. For these two claims, the medical provider was
unable to verify whether a Medicaid-covered service took place on the date of transportation.
We did not question the transportation service for these two claims and did not include the
claims in our estimate of net overpayments.




                                                4
As a result of the underpayments and unallowable and partially unallowable claims, Project
Amistad received a net overpayment of $966. Based on our sample results, we estimated that
Project Amistad received net overpayments of at least $262,536 ($131,268 Federal share) for CY
2007.

TRANSPORTATION CLAIMED AT THE INCORRECT RATE

The State agency underpaid 14 claims for transportation provided by Project Amistad between
July and September 2007. The State agency authorized a rate increase in September 2007 for
certain transportation providers, including Project Amistad, and made the increase retroactive to
July 2007. The State agency instructed transportation providers to hold unsubmitted claims for
this period until the State agency could update the rate tables in the State’s payment system or,
for claims already submitted for this period, submit a supplemental claim for the difference
between the old and new rates. Project Amistad did not submit a supplemental claim for the 14
claims. We included the underpayment amount for these claims in our estimate of net
overpayments.

CRIMINAL BACKGROUND CHECK NOT PERFORMED
OR DRIVER HAD A PROHIBITED CRIMINAL HISTORY

The State agency claimed reimbursement for 12 claims for transportation provided by Project
Amistad drivers who did not have an annual criminal background check or who had prohibited
criminal histories on file with Project Amistad.

Of the 12 claims, 11 were for transportation provided by three Project Amistad drivers who had
on file with Project Amistad criminal histories that should have prohibited them from
participating as Project Amistad drivers for the transportation program. Each of the three
drivers’ criminal histories included a conviction for a DWI committed before Project Amistad
hired them. The contract between TxDOT and Project Amistad prohibited Project Amistad from
employing a driver with any history of DWI.

One of the twelve claims was for transportation provided by one Project Amistad driver who did
not have a criminal background check performed until 1 year and 8 months after she provided
the transportation. The driver’s criminal background check did not reveal a criminal history that
would have prohibited the driver from participating as a transportation driver.

Project Amistad officials told us that it hired drivers with a history of DWI because it had
misinterpreted the provisions of its contract with TxDOT to mean that Project Amistad could
hire drivers with a DWI conviction if it had occurred more than 7 years before the date of
employment. Project Amistad’s human resources director told us that she agreed that Project
Amistad had misinterpreted the provisions of the contract regarding DWI convictions and would
no longer employ drivers with DWI convictions for the transportation program. At the time of
our audit, Project Amistad was conducting background checks of new employees.




                                                5
MEDICAID-COVERED SERVICE NOT PROVIDED ON TRANSPORTATION DATE

The State agency claimed reimbursement for six transportation claims with dates of service on
which beneficiaries did not receive a Medicaid-covered health care service. The providers
located at the destination addresses listed on all six claims confirmed that the beneficiary was a
patient of theirs but that they had not provided a Medicaid-covered medical service to the
beneficiary on the date of transportation. State agency officials told us that as of January 2008,
the transportation program had implemented procedures to match transportation claims to MMIS
data to verify that a Medicaid-covered health care service was provided on the date of
transportation.

UNREGISTERED VEHICLE USED FOR TRANSPORTATION

The State agency claimed reimbursement for one claim that listed a Project Amistad vehicle
without a valid State vehicle registration as the vehicle used to provide transportation in April
2007. The State registration for this vehicle expired at the end of March 2007 and was not
renewed until May 2007.

INSUFFICIENT DOCUMENTATION

The State agency claimed reimbursement for two claims for which the medical provider was
unable to confirm that a Medicaid-covered service took place on the date of transportation. In
one case, the provider’s computer system did not maintain records back to 2007. In the other
case, the provider confirmed that the beneficiary was a patient but was unable to determine when
medical services were provided. We did not question the transportation service for these two
claims and did not include the claims in our overpayment estimation.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $131,268 (Federal share) for claims that did not comply with Federal and State
       requirements,

   •   work with Project Amistad to implement controls to ensure that the correct rate is paid
       for transportation,

   •   ensure that Project Amistad completes criminal background checks on drivers in a timely
       manner,

   •   ensure that Project Amistad has controls in place to prevent payment for transportation
       services on dates that beneficiaries do not receive a Medicaid-covered health care service,
       and

   •   work with Project Amistad to implement controls to ensure that vehicles used for
       transportation have a valid State vehicle registration.


                                                 6
STATE AGENCY COMMENTS

Regarding our first recommendation, the State agency said that it will work with Project Amistad
to determine whether the transportation services identified in the audit as unallowable complied
with Federal and State requirements and that it will refund the Federal share for those services
that did not meet applicable requirements. Regarding the four remaining recommendations, the
State agency provided details of the actions it had completed or planned to complete in response
to those recommendations.

The State agency’s comments are included in their entirety as Appendix C.




                                               7
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of all Medicaid claims paid during calendar year (CY) 2007 for
nonemergency medical transportation provided by the League of Latin American Citizens –
Project Amistad (Project Amistad).

SAMPLING FRAME

The State agency provided us with a database of Texas Medicaid payments made during CY
2007 for transportation services. To determine the sampling frame for this sample, we extracted
from the database the transportation payments made to Project Amistad. Of the $51,009,926
($25,504,963 Federal share) in transportation payments made to the transportation providers in
the 10 Texas service areas during CY 2007, Project Amistad received $2,975,309 ($1,487,654
Federal share) for 46,887 claims. The sampling frame consisted of these claims.

SAMPLE UNIT

The sample unit was an individual paid Medicaid claim for transportation provided by Project
Amistad.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample size of 100 transportation claims.

SOURCE OF RANDOM NUMBERS

We used Office of Inspector General, Office of Audit Services, statistical software to generate
the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in our sampling frame from 1 to 46,887. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used Office of Inspector General, Office of Audit Services, statistical software to estimate
the total value of overpayments.
             APPENDIX B: SAMPLE RESULTS AND ESTIMATES

              Sample Results for Improper Transportation Services

 Sampling     Value of         Sample        Value of       Number of    Value of
Frame Size     Frame            Size          Sample        Improper    Improper
              (Federal                       (Federal       Payments    Payments
               Share)                         Share)                     (Federal
                                                                          Share)
  46,887      $1,487,654         100          $3,449            33         $483


              Estimated Value of Improper Transportation Services
             (Limits Calculated for a 90-Percent Confidence Interval)
                           Point estimate      $226,399
                           Lower limit         $131,268
                           Upper limit         $321,529
                                    Page 1 of 4


APPENDIX C: STATE AGENCY COMMENTS
Page 2 of 4
Page 3 of 4
Page 4 of 4
